No. 21IN THE

Supreme Court of the United States
DERRICK GRANT,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari to the United States Court of Appeals for the Sixth Circuit
PETITION FOR A WRIT OF CERTIOARI

ANNA M. GREVE*
TAFT STETTINIUS & HOLLISTER LLP
425 Walnut Street, Suite 1800
Cincinnati, OH 45202
(513) 357-9634
agreve@taftlaw.com
Counselfir Petitioner
May 14, 2021

*Counsel of Record

(i)
QUESTION PRESENTED FOR REVIEW
Section 111 of Title 18 of the United States Code prohibits assaulting any person
"designated in section 1114 of this title." Section § 1114 designates "any officer or
employee of the United States or of any agency of the United States Government . . .
or any person assisting such an officer or employee in the performance of such duties"
as qualifying. Here, the defendant punched an employee of a company that operates a
private prison and was convicted of assault under 18 U.S.C. § 111. The courts below
identified no officer or employee being assisted. Instead, the courts found that that the
private employee was assisting the Marshals Service, a federal agency. But an "agency"
is not "an officer or employee." Was the private prison's employee "assisting such an
officer or employee" such that the employee was a covered person under § 1114?

PARTIES TO THE PROCEEDING AND RULE 29.6 STATEMENT
Petitioner is Derrick Grant, an inmate incarcerated at the U.S. Penitentiary in
Allenwood. Respondent is the United States of America.
There are no corporate parties involved in this case.
RELATED PROCEEDINGS
United States District Court (S.D. Ohio)
United States v. Grant, No 4:16-cr-00332 (August 23, 2019)
United States Court of Appeals (6th Cir.)
United States v. Grant, No. 19-3824 (Dec. 16, 2020)

TABLE OF CONTENTS
Page
QUESTION PRESENTED
PARTIES TO THE PROCEEDING AND RULE 29.6 STATEMENT

ii

RELATED PROCEEDINGS

ii

TABLE OF AUTHORITIES
PETITION FOR A WRIT OF CERTIORARI

1

OPINION AND ORDERS BELOW

1

STATEMENT OF JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

2

INTRODUCTION

3

STATEMENT

5

REASONS FOR GRANTING THE PETITION

7

I. Whether an assaulted person gave assistance is a different question from whether
the assaulted person assisted a federal officer or employee.
9
II.

An agency is not an "officer" or "employee."

III. Bedford resulted from precedent which misapplied a prior decision of this
Court

11
17

IV. This Court requires a clear signal before endorsing an interpretation of a statute
22
that significantly alters the federal—state balance in criminal law
CONCLUSION

26

(iv)
(iv)
APPENDICES
APPENDICES
APPENDIX A:
A: United
States v.
Derrick Grant,
1141 (6th
2020....
APPENDIX
United States
v. Derrick
Grant, 979
979 F.3d
F.3d 1141
(6th Cir.
Cir. 2020

1a
1a

APPENDIX B:
B: Judgment
Judgment in
in aa Criminal
Case, United
States v.
Derrick Grant,
No. 4:16APPENDIX
Criminal Case,
United States
v. Derrick
Grant, No.
4:16CR-332,
2017 WL
WL 3667606
3667606 (N.D.
Aug. 23,
23, 2019)
2019)………………….
3a
CR-332, 2017
(N.D. Ohio
Ohio Aug.
3a
APPENDIX C:
Motion in
in Limine,
Limine, United
States v.
Derrick Grant,
No.
APPENDIX
C: Government's
Government's Motion
United States
v. Derrick
Grant, No.
4:16-CR-332,
2017 WL
WL 3667606
Ohio Dec.
Dec. 13,
13, 2016)
2016)…………....
13a
4:16-CR-332, 2017
3667606 (N.D.
(N.D. Ohio
13a
APPENDIX D:
D: Criminal
States v.
No. 4:16-CR-332,
APPENDIX
Criminal Complaint,
Complaint, United
United States
v. Derrick
Derrick Grant,
Grant, No.
4:16-CR-332,
2017 WL
WL 3667606
3667606 (N.D.
Ohio Sep.
Sep. 22,
22, 2016)
2016)…………………………...
18a
2017
(N.D. Ohio
18a
APPENDIX E:
Transcript of
of Preliminary
and Detention
Detention Hearing,
Hearing, United
States v.
APPENDIX
E: Transcript
Preliminary and
United States
v.
Derrick Grant,
No. 4:16-CR-332,
2017 WL
WL 3667606
3667606 (N.D.
Dec. 13,
13,
Derrick
Grant, No.
4:16-CR-332, 2017
(N.D. Ohio
Ohio Dec.
21a
2016,)………………………………………………………….………...
21a
2016,)
APPENDIX F:
Order Denying
Denying Petition
Banc, United
States v.
APPENDIX
F: Order
Petition for
for Rehearing
Rehearing En
En Banc,
United States
v.
Derrick Grant,
No. 19-3824
19-3824 (6th
Cir. Dec.
Dec. 16,
16, 2020)
2020)………….………...
Derrick
Grant, No.
(6th Cir.

43a
43a

(v)

TABLE OF CITED AUTHORITIES
Cases

Page(s)

Carter v. United States,
530 U.S. 255 (2000)

6

Cleveland v. United States,
531 U.S. 12 (2000)

21

Cohens v. Virginia,
6 Wheat. 264 (1821)

18

Corr. Servs. Corp. v. Malesko,
534 U.S. 61 (2001)

18

Engle v. Isaac,
456 U.S. 107 (1982)

18

Frisby v. Schult,
487 U.S. 474 (1988)

11

Jones v. United States,
529 U.S. 848 (2000)

21

Minneci v. Pollard,
565 U.S. 118 (2012)

18

Nat'lAss'n ofMfrs. v. Dep't of Def,
138 S. Ct. 617 (2018)

6

Rewis v. United States
401 U.S. 808 (1971)

20

(vi)
Rochin v. California,
342 U.S. 165 (1952)

18

United States v. Ama,
97 F. App'x 900 (10th Cir. 2004)

16, 17

United States v. Bass,
404 U.S. 336 (1971)

20, 21

United States v. Bedford,
914 F.3d 422 (6th Cir. 2019)

passim

United States v. Bettelyoun,
16 F.3d 850, 851-52 (8th Cir. 1994)

14

United States v. Bond,
572 U.S. 844 (2014)

21

United States v. Feola,
420 U.S. 671 (1975)

17, 18

United States v. Gonales,
520 U.S. 1 (1997)

11

United States v. Luedtke,
771 F.3d 453 (8th Cir. 2014)
United States v. Murphy,
35 F.3d 143 (4th Cir. 1994)
United States v. Roy,
408 F.3d 484, 490-91 (8th Cir. 2005)
United States v. Scurry,
6th Cir. No. 19-4038, 2020 WL 6498675 (Thapar, J., concurring)

14, 15
16

14, 15
16

(vi1)
Statutes
1 U.S.C. 5 1

11

18 U.S.C. 5 111

passim

18 U.S.C. 5§ 111 and 1114

passim

18 U.S.C. 5 1114

passim

5 2804

15

25 U.S.C.

25 U.S.C. § 2804(f)

15

28 U.S.C. § 1254(1)

1

28 U.S.C. 5 1291

5

Dictionary Act

11

Travel Act

20

U.S. Code Title 18 Section 111(a)(1)

1, 2, 6, 15

Other Authorities
American Heritage Dictionary of the English Language (New College ed. 1981)

9, 10

Antonin Scalia & Bryan A. Garner, A Note on the Use of Dictionaries, Vol. 16

9, 10

Merriam-Webster's Collegiate Dictionay (10th ed. 1996)
Random House Dictionary of the English Language (2d ed. 1987)
Shane Bauer, MOTHER jONES (August 2016)

9, 10, 11
9, 10
4

(1)
PETITION FOR A WRIT OF CERTIORARI
Derrick Grant respectfully petitions for a writ of certiorari to review the
judgment of the United States Court of Appeals for the Sixth Circuit.
OPINION AND ORDERS BELOW
The opinion of the court of appeals (Pet. App. la-5a) is reported at 979 F.3d
1141. The order of the district court (Pet. App. 6a-12a) is not published in the Federal
Supplement.
STATEMENT OF JURISDICTION
On March 19, 2020, this Court issued an order extending the deadline to file any
petition for writ of certiorari to 150 days. The judgment of the court of appeals was
entered on November 12, 2020. Petitioner filed a timely motion for rehearing, which
the Sixth Circuit denied on December 16, 2020. The jurisdiction of this Court rests on
28 U.S.C.

5 1254(1).

(2)
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Section 111(a)(1) of Title 18 of the U.S. Code provides:
Whoever . . . forcibly assaults, resists, opposes, impedes, intimidates, or
interferes with any person designated in section 1114 of this title while
engaged in or on account of the performance of official duties. . . . shall. . .
where such acts involve physical contact with the victim of that assault . . .
be fined under this title or imprisoned not more than 8 years, or both.
Section 1114 of Title 18 of the U.S. Code provides:
Whoever kills or attempts to kill any officer or employee of the United
States or of any agency in any branch of the United States Government . . .
while such officer or employee is engaged in or on account of the
performance of official duties, or any person assisting such an officer or
employee in the performance of such duties or on account of that
assistance, shall be punished. . . .

(3)
INTRODUCTION
Congress criminalized assaulting federal employees and those assisting them
through 18 U.S.C. §§ 111 and 1114. Section 111 prohibits assaulting any person
"designated in section 1114 of this title." Section 1114 designates "any officer or
employee of the United States or of any agency of the United States Government . . .
or any person assisting such an officer or employee in the performance of such duties"
as qualifying. Section 1114 is limited—the reference to "an officer or employee"
suggests that when non-federal personnel are assaulted, they must have been assisting
specific, identifiable federal officers or employees to come under 5 1114's ambit.
But the federal courts have expanded the reach of 5 1114 by adding to its text.
Courts have held that a person is covered under 5 1114 when that person simply works
for companies that have a contract with a U.S. agency. That goes too far. In that
situation, there is no specific "officer or employee" at issue. Rather, courts have held
that assistance to the agency sufficed. But "an agency" is not a covered person under
§ 1114. Tellingly, the Sixth Circuit here conceded that its interpretation went beyond

(4)
the text of § 1114 by rejecting Grant's argument on the basis that Grant emphasized "a
literal reading of 5 1114's text." Grant, 979 F.3d at 1143.
The current interpretation of 5 1114 is no small matter. The States have a general
police power to prosecute crime, not the federal government.
interpretation of

5 1114 allows

Yet the current

the federal government to prosecute crime

even a

simple assault—so long as the assaulted person is tangentially assisting any U.S. agency.
The size of the federal government and the corresponding size of the workforce of
companies with which it contracts means that this has significantly changed the delicate
federal-state balance in criminal law. But this Court requires that Congress give a clear
signal the Court will endorse such an expansive interpretation and has not hesitated to
reject broad interpretations when that signal is lacking—such as here.
In sum, not only does the Sixth Circuit's decision here run afoul of 18 U.S.C.
§§ 111 and 1114, but it endorses the ballooning of the federal government's ability to
prosecute crime in contradiction of 5 1114's text and without the necessary, clear signal
from Congress.

(5)
STATEMENT OF THE CASE
In 2016, a prisoner at the Northeast Ohio Correctional Center punched a prison
employee in the face. That prisoner, Derrick Grant, was charged and convicted under
18 U.S.C. 55 111 and 1114. But Grant did not assault a federal employee. The facility
where Grant was housed is not a Bureau of Prisons facility—it is a private prison owned
and operated by CoreCivic, formerly known as the Corrections Corporation of
America.1 The U.S. Marshals Service contracted with CoreCivic for CoreCivic to hold
inmates in CoreCivic's prison. (Pet. App. 17a.)
The government filed a complaint against Grant in September 2016. (Pet. App.
18a-20a.) At a probable cause hearing, Grant's counsel objected that the CoreCivic
employee was not covered under 5 1114. (Pet. App. 41a.) The district court disagreed,
holding that "the assaulted person was assisting officers and employees of the United
States Marshal[s] Service." (Pet. App. 41a.) The government later moved to hold that

1 CoreCivic announced its name change in October 2016, shortly after an investigative
journalist published an article detailing the four months he had spent working in one of
their facilities. My four months as a private prison guard, Shane Bauer, MOTHER JONES
(August 2016) .

(6)
the CoreCivic employee qualified under § 1114. (Pet. App. 13a-15a.) The court granted
the motion the next day. Grant pleaded guilty without a plea agreement and the district
court sentenced him to forty months' imprisonment. (Pet. App. 6a-12a.) Grant timely
appealed to the Sixth Circuit, which had jurisdiction under 28 U.S.C. 5 1291. The Sixth
Circuit affirmed Grant's conviction.

(7)
REASONS FOR GRANTING THE PETITION
A person commits a crime under 18 U.S.C. 5 111 ("the assault statute") when he
"forcibly assaults . . . or interferes with any person designated in section 1114 of this
title while engaged in or on account of the performance of official duties." Section 111
thus criminalizes these acts only when they are done against certain people. Qualifying
persons under 5 1114 (the "covered-person statute") include "any officer or employee
of the United States or of any agency in any branch in the United States government . . .
or any person assisting such an officer or employee in the performance of such duties."
The CoreCivic employee here is not an officer or employee of the United States. So,
this case concerns the interpretation of only the latter portion—"assisting such an
officer or employee."
Here, the Sixth Circuit relied on circuit precedent, United States v. Bedford, 914
F.3d 422 (6th Cir. 2019), to affirm Grant's conviction. But Bedford was wrong and so is
the decision below.
In Bedford, the Sixth Circuit upheld a conviction under 18 U.S.C.

5 111 when a

driver, in an act of road rage, shot at a truck driver employed by a company under

(8)
contract with the USPS to deliver mail. Id. at 430. The court held that the truck driver
qualified under

5 1114

because "when a private mail carrier, pursuant to formal

contract, carries U.S. mail on behalf of the USPS, he assists an officer or employee of
the United States in the performance of official duties." Id. at 425. The court thus
declared it a "threshold matter" that "the USPS . . . [is] encompassed by 18 U.S.C.

5 1114."

Id. at 424-25.

In upholding Grant's conviction, the Sixth Circuit relied on Bedford to explain
that "we have previously held that

5 111

encompasses circumstances like this one,

where a private employee performs the same federal duties a federal employee would
otherwise fulfill." Grant, 979 F.3d at 1142. But Section 1114 of Title 18 is limited to
those persons assisting "an officer or employee" of the United States—not those who
perform similar functions. And the USPS is an agency—not "an officer or employee."
Ultimately, these decisions cannot be squared with the text of the statute.

(9)
I. Whether an assaulted person gave assistance is a different question from
whether the assaulted person assisted a federal officer or employee.
A court's inquiry should begin with the text. Carter v. United States, 530 U.S. 255,
271 (2000). If the text is unambiguous, it should end there too. Nat'l Ass'n of Mfrs. v.
Dep't of Del, 138 S. Ct. 617, 631 (2018). An examination of the text of 18 U.S.C. 5 111
and 1114 shows that these statutes do not encompass Grant's conduct.
Here, the Sixth Circuit relied on Bedford's holding and reasoning in upholding
Grant's conviction. Grant, 979 F.3d at 1143 ("Grant's argument . . . is foreclosed by
our recent decision in United States v. Bedford . . ."). But Bedford went wrong by conflating
inquires under the covered-person statute. The text of 5 1114 requires three elements
to hold that an assaulted person comes under its protection:
Assistance. The assaulted person must have been providing assistance;
Federal Personnel. The assaulted person must have been assisting federal
personnel;

"Any person assisting such an officer or employee in the performance of such duties
or on account of that assistance. . . ." 18 U.S.C. § 1114 (emphasis added).
2

"Any person assisting such an o zcer or employee in the performance of such duties or on
account of that assistance. . . ." 18 U.S.C. 5 1114 (emphasis added).
3

(10)
In Furtherance of Federal Duties. The assaulted person must have been
providing assistance to the qualifying federal personnel regarding the federal
personnel's "performance of [federal] duties."4
Examples help to separate these elements. First, assistance: it would not suffice
if, for example, a bystander casually chatting with a federal officer or employee was
assaulted. There, the assaulted person was providing no assistance. Second, qualifying
federal personnel: there would be no covered person under

5 1114 for lack of federal

personnel if a bystander was injured after intervening in a fight between a state police
officer and the officer's assailant. Third, performance of official duties: there would
be no violation under

5 1114 if a bystander (and good neighbor) was assaulted while

helping a neighbor (a federal agent) carry groceries into a house. In that situation,
although there was assistance and a federal agent, the assistance was not given in
furtherance of any duty on the part of the federal official.
The Sixth Circuit conflated the first and third elements in Bedford Specifically,
the court in Bedford asked only "what it means to assist," under

1114. Id. at 428

"Any person assisting such an officer or employee in the peOrmance of such duties or on
account of that assistance. . . ." 18 U.S.C. 5 1114 (emphasis added).
4

(11)
(emphasis added). The court held that the victim qualified under § 1114 because the
victim "provided supplemental help or support to the USPS." Id. at 428. But that was
only part of the analysis—the court never addressed what it meant to be "an officer or
employee" under 5 1114, a different inquiry.
Rather than addressing whether the driver was assisting "an officer or employee,"
the Sixth Circuit in Bedford declared it a "threshold matter" that "the USPS is 'an agency
or branch' of the United States government and is therefore encompassed by 18 U.S.C.
§ 1114." Id. But how "an agency"—an organization—equates with "an officer or
employee"—specific persons—the court never explained.
II.

An agency is not an "officer" or "employee."
Who was the CoreCivic employee assisting? The district court here held that the

CoreCivic employee was assisting "the United States Marshal[s] Service." (Pet. App.
41a.) But the Marshals Service is an agency—not an "officer" or an "employee."
The definitions of each show the clear distinctions. An "agency" is defined as
"an establishment engaged in doing business for another" or "an administrative division
(as of a government)." Merriam-Webster's Collegiate Dictionary at 22 (10th ed. 1996). Other

(12)
dictionaries similarly define agency as "[a] business or service authorized to act for
others," The American Heritage Dictionary of the English Language at 24 (New College ed.
1981), or "an organization, company, or bureau that provides some service for
another." The Random House Dictionary of the English Language at 37 (2d ed. 1987).5
Americans are familiar with agencies such as the Department of Veterans Affairs, the
Department of Defense, and the Department of Homeland Security.
An officer, on the other hand, is defined as "one who holds an office of trust,
authority, or command." Merriam-Webster's at 379. Other dictionaries similarly define
officer as "[o]ne who holds an office of authority or trust in a corporation, government,
or other institution," American Heritage at 912, or "a person appointed or elected to some
position of responsibility or authority in the government, a corporation, a society, etc.,"
Random House at 1344-45.
Lastly, an employee is defined as "one employed by another usually] for wages
or salary and in a position below the executive level." Merriam-Webster's at 807.

'These dictionaries were chosen because the statute was amended in 1996 to its current
form. Antonin Scalia & Bryan A. Garner, A Note on the Use of Dictionaries, Vol. 16 No.
4 GREEN BAG at 427-28.

(13)
Likewise, other dictionaries define employee as la] person who works for another in
return for financial or other compensation," American Heritage at 428, or "a person
working for another person or a business firm for pay.' Random House at 638.
As the definitions show, "agency" does not replace "officer" or "employee."
Officers and employees suggest specific, articulable people while agency denotes no
specific people, but entire organizations.
Other textual analysis tools support Grant's interpretation. The use of the
singular in 5 1114—"such an officer or employee"—reinforces Grant's conclusion.
When Congress uses the singular, the singular matters. See, e.g., Frisby v. Schult, 487 U.S.
474, 482 (1988) (rejecting a First Amendment challenge because "the singular form of
the words 'residence' and 'dwelling' suggests that it is intended to prohibit only
picketing focused on . . . a particular residence" and not "all picketing in residential
areas"). Congress said so in the Dictionary Act, which clarifies that one cannot modify
the singular to include the infinite plural; rather, "words importing the singular include
and apply to several persons, parties, or things." See 1 U.S.C. 5 1 (emphasis added). And
"several" means only "an indefinite number more than two and fewer than many."

(14)
Merriam-Webster's at 1073 (emphasis added). So at best, the covered-person statute
suggests that an assaulted person could be assisting several officers or employees—not
an entire agency.
Congress, furthermore, limited the second half of the statute in a way that it did
not limit the first. When a federal officer or employee is the victim, Congress used
broad language-5 1114 covers "any officer or employee." But when someone assisting
a U.S. employee is the victim—and the federal employee is thus more removed—
Congress omitted "any" and switched to "an." This switch is not pedantic. See, e.g.,
United States v. Gonales, 520 U.S. 1, 5 (1997) ("Read naturally, the word 'any' has an
expansive meaning, that is, 'one or some indiscriminately of whatever kind."' (quoting
Webster's Third New Int'l Dictionary)). That Congress used more expansive language
when federal personnel are directly involved is telling.
The Sixth Circuit's treatment of the dictionary definitions, respectfully, shows
that the facts surrounding Grant's conviction fall outside the statute's text. The Sixth
Circuit criticized Grant for emphasizing "a literal reading" of 5 1114. Grant, 19-3824 at
3. And the court conceded that "assisting 'any officer or employee,' could have a

(15)
different literal meaning than assisting 'any agency."' Id. at 5. Yes, Grant does assert
that the literal meaning of the text controls—because the actual meaning of the text
should control. By taking issue with Grant's emphasis on the "literal meaning" of the
text, the Sixth Circuit conceded that the facts here do not fit within the text's meaning.
The Sixth Circuit rejected the "literal" meaning of the statute for two reasons.
First, the court said that "isolating those statements in the way Grant does strips the
statutory text of its context." Id. As the court concluded, lain ordinary reader . . . of
1114 would understand the law as protecting federal contractors who assist federal
officers without drawing a distinction between assisting an agency or an individual
employee of the agency." Id. Why is that what an ordinary reader would find? The
court gave no reason for an ordinary reader to prefer one interpretation over the other.
And since Grant's interpretation tracks the statute's literal meaning (and especially since
the court never found the text ambiguous) an ordinary reader should prefer Grant's
interpretation.
Second, the Sixth Circuit retreated from the text's literal meaning because "an
agency ultimately acts through individuals . . . assisting one is ordinarily the same as

(16)
assisting the other." Id. at 5. But the court overlooked that this rationale renders
statutory text superfluous. The covered-person statute, significantly, uses both the
words "officer" and "employee"—not one or the other. Both "officer" and "employee"
suggest natural people. So if the agencies-act-only-through-people argument suffices
to justify the court's decision, the statute would need to refer to either "officer" or
"employee"—not both. Since the statute uses both "officer" and "employee," both
must have independent meaning.
The decision here breaks from 5 1114's text. Instead of determining whether the
assaulted person was assisting "an officer or employee" the court changed the inquiry;
the court held that anyone who performed a "federal function" would qualify under

5 1114.

Id. at 6 ("[P]erhaps a future case will involve conduct so ancillary to a federal

function . . . that we decide the case is not controlled by Bedford."). But this conclusion
rests on an assumption that the third element under

1114

performance of official

duties—is the only inquiry.
Consider the following. The prison where Grant was housed holds both federal
and state prisoners.

What happens if two prisoners, one federal and one state,

(17)
collectively assault a CoreCivic employee? If the federal government would charge
both, it shows just how broad this statute's interpretation has become. And if the
federal government would charge only the federal prisoner, it shows that coverage
under

5 1114 turns on the status of the prisoner—not on any particular function the

CoreCivic guard performed.
In sum, the plain language of § 1114 leaves no room to endorse a reading
covering those who assist "an agency" rather than specific, identifiable people.
III. Bedford resulted from precedent which misapplied a prior decision of this
Court.
In support of its endorsement of Bedford, the Sixth Circuit cited a number of
decisions from its sister circuits purportedly supporting that result. But that precedent
falters on a careful analysis.
The court first cited United States v. Luedtke, 771 F.3d 453, 455 (8th Cir. 2014), as
support. But Luedtke itself warps precedent; understanding why requires understanding
United States v. Bettelyoun and United States v. Roy. In Bette/youn, the Eighth Circuit held
that tribal officers responding to a call on a reservation qualified under 5 1114. But the
Bettelyoun court based that conclusion solely on a specific statute concerning law

(18)
enforcement on Native American land. 16 F.3d 850, 851-52 (8th Cir. 1994) (quoting
25 U.S.C. § 2804(f) ("While acting under authority granted by the Secretary [to engage
in law enforcement on Native American land] a person who is not otherwise a Federal
employee shall be considered to be an employee of the Department of the Interior only
for purposes of . . . . sections 111 and 1114 of Title 18.")). The court in Roy relied on
Bettelyoun and court likewise used that same statute,

5 2804(f), to

hold that the state

police officers engaged in tribal law enforcement were federal employees under 5 1114.
408 F.3d 484, 490-91 (8th Cir. 2005). Although Roy also said that 5 111's purpose was
to protect both "federal officers and federal functions," it did so only to reject the
defendant's argument that the victim's failure to complete the BIA's required training
categorically excluded him from federal employee status under 5 2804(f). Id
Returning to Luedtke—there, the Eighth Circuit distorted Roy by seizing on the
"federal functions" line. In Luedtke, the court held that a guard at a state prison that
had a contract with the Marshals service qualified under § 1114. 771 F.3d at 455. But
the court never analyzed § 1114's text. The words "an officer or employee," appear
nowhere in the opinion. Rather, the court remarked that "[s]ome federal courts have

(19)
[held] . . . that 5 111 also applies to state officers who are performing federal functions
under a contract. We adopted this approach in Roy. . . . ' Id. at 455. That is wrong. Roy
relied on § 2804(f), which specifically brought non-federal employees under

5 1114's

ambit when used for tribal law enforcement. That went unnoticed by Luedtke, which
never even cited 5 2804. Because Luedtke is based on a misreading of Bette/youn and Roy,
it provides no real support to justify the current interpretation of 5 1114.
The Sixth Circuit next cited United States v. Ama, 97 F. App'x 900 (10th Cir. 2004)
as putative support. But Ama based its holding on only purpose and policy rationale.
In Ama, a defendant at a Salt Lake County detention center, which had a contract with
the Marshals Service to house federal employees, hit an officer. Id. at 901. The court
concluded that the officer fell under 5 1114 only because the statute was "intended to
protect both federal officers and federal functions." Id. at 902. In sum, rather than
look to the words of the statute, the court in Ama based its conclusion on purpose.
That is improper. See United States v. Scurg, 6th Cir. No. 19-4038, 2020 WL 6498675, *8

(20)
([T]he text of the statutes is clear, so resort to statutory purpose is improper.") (Thapar,
J., concurring).
The court likewise pointed to United States v. Murphy, 35 F.3d 143, 145 (4th Cir.
1994). But that case interpreted language different from the current version of the
statute. Former 18 U.S.C. § 1114 was a laundry-list statute, individually listing specific
categories of federal personnel.' Former § 1114, for example, included "any United
States marshal or deputy marshal or person employed to assist such marshal or deputy
marshal" as a covered person.

Since the text of the statute has now changed

significantly since former § 1114, that case provides no real support to the Sixth
Circuit's decision below.

Former 5 1114 was lengthy, including among others "any judge of the United States,
any United States Attorney, any Assistant United States Attorney, or any United States
marshal or deputy marshal or person employed to assist such marshal or deputy
marshal, any officer or employee of the Federal Bureau of Investigation of the
Department of Justice, any officer or employee of the Postal Service, any officer or
employee of the Secret Service or of the Drug Enforcement Administration, any officer
or member of the United States Capitol Police. . . ." 18 U.S.C. 5 1114 (1995). The list
continues.

(21)
To the extent that any of those decision support Bedford, they are based on a
warped reading of Supreme Court precedent, United States v. Feola, 420 U.S. 671 (1975).
In Feola, the defendant assaulted undercover federal agents posing as heroin buyers. Id.
at 674. The question before this Court was "whether knowledge that the intended
victim is a federal officer" was an element under 5 111. Id. at 672. The Court held that
there was no such requirement.
Now, courts quote Feola's statement that Congress intended to protect "both
federal officers and federal functions" to justify the current interpretation of

5 1114.

See, e.g., Bedford, 914 F.3d at 429; Ama, 97 F. App'x at 902. But Feola used that statement
only to explain that "[t]he rejection of a strict scienter requirement is consistent with
both purposes." 420 U.S. at 679. It has nothing to do with who qualifies under 5 1114.
Feola, in fact, did not deal with the covered-person statute at all—it was entirely about
the assault statute, 18 U.S.C.

111. In any event, a one-off quote from this Court's

decision which analyzed an unrelated question should not defeat a text's plain meaning.'

In addition, recognizing that private prisons are different from federal prisons brings
consistency to jurisprudence. This Court has held that different rules apply to private
prisons: inmates at a BOP facility can bring a Bivens action but inmates at private prisons

(22)

IV. This Court requires a clear signal before endorsing an interpretation of a
statute that significantly alters the federal—state balance in criminal law.
As the federal government has limited powers, Congress has a limited ability to
punish crimes. Cohens v. Virginia, 6 Wheat. 264, 428 (1821) ("Congress cannot punish
felonies generally."). Congress can legislate crimes only as "an appropriate means of
carrying into execution its limited grant of legislative powers." Rochin v. California, 342
U.S. 165, 168 (1952) (quoting U.S. Const. Art. I, 8, cl. 18). Rather, the States "possess
primary authority for defining and enforcing the criminal law." Engle v. Isaac, 456 U.S.
107, 128 (1982).
Interpreting the covered-person statute to include anyone who "assists an
agency)) swells the reach of 5 1114 and distorts the federal—state balance in criminal law.
How? Courts justify the current interpretation of

1114 by reasoning that, if not for

the victim, a federal employee would have to do that work. See, e.g., Bedford, 914 F.3d at

have no such option. See Minneci v. Pollard, 565 U.S. 118, 120 (2012); Corr. Servs. Coo. v.
Malesko, 534 U.S. 61, 63 (2001).

(23)
428 ("Had it not been for [the victim] or another contract driver, the USPS would have
had to deliver the mail itself."). But that reasoning has almost no limit.
The official U.S. Government System for contract opportunities (beta.sam.gov)
provides a wealth of examples for contractor opportunities with the U.S. Government.
As of the date of filing this petition, the National Park Service sought to purchase
chemical storage lockers. The Department of Defense is looking for graphic designers
for assistance with print media, publications, and photography. The Department of
Commerce wants to buy 1,000 feet of electrical cable. And the Bureau of Prisons is
looking for thirty pounds of frozen tater tots. Under the interpretation endorsed by
Bedford and Grant, any person working under the scope of those contracts—whether by
assembling the storage lockers, manufacturing the electrical cable, or packaging the tater
tots—would be covered under 1114. After all, if not for the employees working under
those contracts, then federal employees would have to do that work.
The sheer number of entities that contract with the federal government means
that the decisions here balloon the federal government's reach into criminal law. The
Department of Justice alone, to take one example, contracts with entities such as

(24)
Verizon, the Mayo Clinic, and Veritas Capital Fund Management, among others.
Federal Procurement Data System (2020). Overall, the federal government contracts
with at least 3,500 private corporations, including Lockheed Martin, Boeing, SpaceX,
Rolls-Royce, Raytheon, and General Electric, among other big names. Id. Under
Bedfords expansive reading, millions of private employees working under government
contracts with private corporations are "assisting such an officer or employee." Indeed,
the government conceded at oral argument that even "extreme" examples fall under
the current interpretation of § 1114. (Oral Argument, 15:50-17:00.)
The Supreme Court has long cautioned against such expansions without
accompanying clear statutory language. United States v. Bass, 404 U.S. 336, 349 (1971)
("Congress has traditionally been reluctant to define as a federal crime conduct readily
denounced as criminal by the States. . . . unless Congress conveys its purpose clearly, it
will not be deemed to have significantly changed the federal-state balance."). The Court
has not hesitated to reject interpretations of statutes expanding the federal
government's role in criminal law without accompanying clear text. Rewis v. United States
401 U.S. 808, 809 (1971) (rejecting the government's interpretation of the Travel Act as

(25)
it would "alter sensitive federal-state relationships . . . and might well produce situations
in which the geographic origin of customers . . . would transform relatively minor state
offenses into federal felonies"); United States v. Bass, 404 U.S. 336, 337-38 (1971)
(reversing felon-in-possession convictions because "the broad construction urged by
the Government renders traditionally local criminal conduct a matter for federal
enforcement. . . [a]bsent a clearer statement of intention from Congress . . . we do not
interpret [the statute] to reach the 'mere possession' of firearms").
The Supreme Court has more recently reiterated that principle. In Cleveland v.
United States, it reversed convictions under the federal mail fraud statute against people
who lied to Louisiana State Police about gaming permits because "it invites us to
approve a sweeping expansion of federal criminal jurisdiction in the absence of a clear
statement by Congress." 531 U.S. 12 (2000); see also Jones v. United States, 529 U.S. 848,
857 (2000) ("Were we to adopt the Government's expansive interpretation . . . hardly a
building in the land would fall outside the federal statute's domain. . ."). And just
seven years ago, it declared a statute that criminalized the use of chemical weapons did
not reach a jilted wife who left chemical irritants on her husband's girlfriend's mailbox

(26)
and car. See United States v. Bond, 572 U.S. 844, 860 (2014) ("Me can insist on a clear
indication that Congress meant to reach purely local crimes, before interpreting the
statute's expansive language in a way that intrudes on the police power of the States.").
The decision here conflicts with this Court's precedent. Not only does it run
afoul of § 1114's text, but it demands an expansive reading of the federal government's
ability to prosecute crime without the necessary, clear signal from Congress.
CONCLUSION
For the foregoing reasons, the petition for a writ of certiorari should be granted.

Respectfully submitted,

M giftyr„.
ANNA M. GREVE
Counsel of _Record
TAFI STE riINIUS & HOLLISTER LLP
425 Walnut Street, Suite 1800
Cincinnati, Ohio 45202
(513) 357-8768
agreve@taftlaw.com
Counselfor Petitioner
May 14, 2021

